UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




      Review of Data Accuracy in the
          FY 2001 Annual Report


                Report No. OIG-AMR-39-03-04




                                              September 2003
INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

September 30, 2003

I hereby submit a Review of Data Accuracy in the FY 2001 Annual Report,
Report No. OIG-AMR-39-03-04. This review was conducted to determine
whether the Fiscal Year (FY) 2001 Annual Report prepared by the National
Labor Relations Board (NLRB or Agency) accurately presented the Agency's
accomplishments and was produced timely.

The Agency used significant resources to develop Annual Reports that are no
longer statutorily required. Section 3 of the National Labor Relations Act
required the Agency to submit an Annual Report to Congress. The Federal
Reports Elimination and Sunset Act of 1995 provides that Annual Reports
cease to be required as of May 15, 2000, unless a particular report is
exempted. No exemptions exist for the NLRB Annual Report. We estimated
that the Agency expended over $600,000 to produce Annual Reports for FY
2000 and FY 2001 that were no longer required.

The Annual Report for FY 2001, dated March 18, 2003, was not available to the
public until nearly 20 months after the end of the fiscal year. The time to
publish the Annual Reports varied over the past 20 years and, after a
downward trend, started to increase with the FY 1999 report. The FY 2002
Annual Report has already been in production nearly 12 months.

The Agency made significant progress in data accuracy and the processes for
producing the Annual Report since we reviewed the FY 1999 NLRB Annual
Report. Note, however, that five Regional Offices were excluded from our scope
because management identified these offices as having known data accuracy
problems. Several data elements tested were incorrect or not supported by
documentation, and analytical procedures identified some missing or illogical
data. These items, however, did not significantly affect the overall accuracy of
the Annual Report. The errors identified were:

   •   Each Region visited had some data elements with errors that exceeded
       our tolerable error rate of 10 percent. Some of the errors generally
       occurred in a consistent manner within the Region, indicating they were
       the result of a Regional policy that disagreed with Agency-wide criteria.

   •   Four median days figures reported in a table were not in agreement with
       the reports on which they were based. Four charts in Chapter 1 did not
       agree with tables in the appendix.

   •   Illogical data could be entered into the Case Activity Tracking System
       (CATS), and data elements were missing in CATS, resulting in differences
       between Annual Report tables.

   •   Backpay of $1,674,035 for four cases was incorrectly reported as
       reimbursement of fees, dues, and fines.

Even though many of the funds spent to prepare the Annual Report were non-
recurring costs associated with CATS, the Agency could save substantial
resources if the Annual Report was discontinued. The major savings would
come from staff time. The savings are difficult to quantify because time spent
on the Annual Report is not now captured, and some time would continue to be
needed to maintain CATS. Primarily the Information Technology Branch could
save significant blocks of time. By eliminating the Annual Report, we estimate
the Agency could put approximately $57,000 to better use each year.

The change would have minimal impact on the public. Relatively few copies,
less than 200, are sold outside the Agency. Much of the Annual Report consists
of information, such as Board decisions, that is already available to the public.
Additional data thought to be of interest to the public that is not otherwise
available could be posted on the Agency Web site.

An exit conference was held on August 21, 2003, with representatives of the
Chairman’s Office, Office of Executive Secretary, Division of Information,
Division of Operations-Management, and the Information Technology Branch.
A draft report was sent to the Director of Information on August 22, 2003, for
review and comment. A joint management response stated that the decision
whether to produce the Annual Report and what form the report will take are
matters to be addressed by the political leadership of the Agency. In a separate
memorandum to the Board, the General Counsel supported producing a
slimmed-down Annual Report. Management's comments are presented in their
entirety as an appendix to this report.



                                     Jane E. Altenhofen
                                     Inspector General




                                        2
                                TABLE OF CONTENTS

BACKGROUND .................................................................................. 1

OBJECTIVES, SCOPE, AND METHODOLOGY .................................... 2

FINDINGS .......................................................................................... 3

AUTHORITY FOR ANNUAL REPORT ................................................... 3

  Management's Comments and OIG Response .................................. 5

TIMELINESS OF ANNUAL REPORT .................................................... 6

REGIONAL OFFICES.......................................................................... 7

  C cases Closed ................................................................................ 7
  R cases Closed ................................................................................ 8
  Data Integrity.................................................................................. 9

OFFICE OF EXECUTIVE SECRETARY ................................................ 9

  C   cases Closed .............................................................................. 10
  C   cases Median Days .................................................................... 10
  R   cases Closed .............................................................................. 10
  R   cases Median Days .................................................................... 10

ANNUAL REPORT TABLES ............................................................... 11
 Recalculation ................................................................................ 11
 Table/Chart Agreement ................................................................. 11
 Analytical Procedures.................................................................... 12

AUDIT FOLLOW-UP ......................................................................... 15

RECOMMENDATION ........................................................................ 16

APPENDIX

   Memorandum from the Associate General Counsel, Deputy
   Executive Secretary, and Executive Assistant to the Chairman, Draft
   Report OIG-AMR-39, Review of Data Accuracy in the FY 2001
   Annual Report
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroads and the airline
industries. The Fiscal Year (FY) 2003 appropriation authorizes 1,952 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and three satellite offices for Administrative Law Judges. NLRB
received an appropriation of $238,982,000 for FY 2003, less an across-the-
board reduction of .65 percent, leaving a net spending ceiling of $237,428,617.

The Agency publishes an Annual Report that identifies and summarizes
significant cases and presents many charts and tables quantifying and
summarizing the Agency's accomplishments. Ten chapters present data on
overall operations for the year, summarize Board decisions that were novel or
precedent setting, and summarize significant cases processed by various NLRB
Divisions and Branches in Federal courts.

The Annual Report also has an appendix that includes a glossary, subject
index, and 40 statistical tables and subtables. The tables include information
such as cases received, cases closed, and elections held both in aggregate and
by items such as location, method of closing, and stage of disposition at
closing. According to the FY 2001 Annual Report, the Agency closed 29,820
unfair labor practice cases (C cases) and 5,504 representation cases (R cases).

In FY 1995, the Agency began development of the Case Activity Tracking
System (CATS) to replace the Case Handling Information Processing System.
Deployment of CATS to Regional, Sub-Regional and Resident Offices was
completed in FY 2000. Headquarters components use stand-alone systems that
include the Pending Case List (PCL) used by the Office of Executive Secretary
(OES) to manage and report on the Board's cases. The Annual Report,
therefore, is compiled using data from CATS and the stand-alone Headquarters
systems. The Director of Information is responsible for coordinating the
production of the Annual Report.

For FY 2001, the Division of Operations-Management (Operations-
Management) tested data by using queries and cross-footing reports to evaluate
data accuracy. In Memorandum OM 02-57, CATS Information and Data
Integrity Program, dated April 16, 2002, Operations-Management asked each
Region to develop a Data Integrity Plan to monitor data entry into CATS.




                                       1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to determine whether the FY 2001 NLRB Annual
Report accurately presented the Agency's accomplishments and was produced
timely. Our scope was C case and R case data in the FY 2001 Annual Report.

We interviewed employees in the Information Technology Branch (ITB), Division
of Information, OES, Division of Judges, Operations-Management, and other
Headquarters program offices to identify sources of data, procedures used to
compute data and gain an understanding of management controls used to
ensure that the Annual Report accurately reflects the underlying data. We
reviewed laws and regulations affecting the production of the Annual Report,
including the NLRA and the Federal Reports Elimination and Sunset Act of
1995. We reviewed the timeliness of the production of the Annual Report for
the past 20 years.

We interviewed employees in the Division of Information, OES, and the Library
and Administrative Services Branch and requested documentation showing
how the Annual Reports were distributed. We also contacted staff for the
President of the Senate to determine whether they received the Annual Report.

We recalculated 17 selected tables and sub tables included in the Annual
Report using the databases obtained from ITB. We reconciled 11 charts in
Chapter 1 of the Annual Report with the tables that present the same
information in the appendix of the Annual Report.

We selected and tested statistical samples of closed and pending C cases and R
cases in four Regions and closed C cases and R cases in OES. Closed cases
were tested to determine whether selected data elements were supported by
documentary evidence. We tested 11 C case and 12 R case data elements for
each closed case tested in the Regions and three data elements for each closed
case tested in OES. Pending cases in CATS were reviewed to determine if they
were accurately reported as pending as of September 30, 2001.

We performed analytical tests to identify missing cases, duplicate cases,
illogical data elements, missing data elements, cases reported in the wrong
period, and the correctness of monetary amounts in the CATS database.

This audit was performed in accordance with generally accepted Government
auditing standards during the period March 2003 through August 2003. We
conducted the audit at NLRB Headquarters and the following Regional Offices:
Region 31 - Los Angeles; Region 14 - St. Louis; Region 30 - Milwaukee; and
Region 34 - Hartford. We excluded five Regional Offices from our scope because
Operations-Management identified these offices as having known data
accuracy problems.



                                       2
                                    FINDINGS

The Agency used significant resources to develop Annual Reports that are no
longer statutorily required and are not produced in a timely manner. Even
though the FY 2001 Annual Report was generally accurate, the Agency has
presented no justification to spend significant resources on this effort.

The Agency made significant progress in data accuracy and the processes for
producing the Annual Report since we reviewed the FY 1999 NLRB Annual
Report. Despite this progress, several data elements tested were incorrect or
not supported by documentation and analytical procedures identified some
missing or illogical data. These items, however, did not significantly affect the
overall accuracy of the Annual Report.


AUTHORITY FOR ANNUAL REPORT

The Agency used significant resources to develop Annual Reports that are no
longer statutorily required. Agency officials responsible for the Annual Report
were unaware of the changed reporting requirement and only had anecdotal
undocumented support for use of the report.

Section 3 of the National Labor Relations Act required the Agency to submit an
Annual Report to Congress. The Federal Reports Elimination and Sunset Act
of 1995 provides that Annual Reports cease to be required as of May 15, 2000,
unless a particular report is exempted. No exemptions exist for the NLRB
Annual Report. The FY 1999 Annual Report, dated April 20, 2001, was the last
required report. The Annual Reports for FY 2000 and later were not required.

We estimated that the Agency expended over $600,000 for programming
changes needed to produce Annual Reports, staff time, and printing related to
Annual Reports for FY 2000 and FY 2001. These expenses were primarily for
computer programming services, exclusively related to the Annual Report
tables, performed between September 11, 2000 and September 30, 2002. The
requirements definition, analysis, and design; coding; testing; and production
cycles of the tables took 7,022 hours costing $483,220.85.

For this 2-year period, ITB Information Systems Section employees spent an
estimated 1,700 hours to develop cross-footing reports, write chapter 1,
prepare chapter 1 charts, write queries to support the data verification process,
create a reconciliation database, document change requests, attend Annual
Report tables meetings, crosscheck the monthly election reports and the
Annual Report election data tables, review specifications, and conduct user
acceptance testing. This staff time was estimated to cost more than $66,000.




                                         3
Most of the $600,000 was for nonrecurring costs, but savings would occur
each year the Annual Report is not produced, primarily in staff time. The
savings are difficult to quantify because time spent on the Annual Report is not
now captured, and some time would continue to be needed to maintain CATS.
We believe the Regional Offices would save some staff time, and Headquarters
offices, primarily ITB, could save significant blocks of time. By eliminating the
Annual Report, we believe the Agency could put approximately $57,000 to
better use every year. This amount includes staff time estimates provided by
ITB and program offices and the cost to have the document published.

The Agency paid the Government Printing Office (GPO) $3,416 to publish the
FY 2001 Annual Report. The cost included publishing the document and
providing the Agency with 125 hardback and 300 paperback copies of the
report. Ninety-five hardback and 108 paperback copies were distributed to
NLRB offices. The remaining 222 copies were given to the Division of
Information, OES, or the Library and Administrative Services Branch for
distribution or to be held in stock. The Agency would save these printing costs
if the Annual Report is not published.

A faceplate in the front of each Annual Report indicates the Annual Report is
sent to the President of the United States, President of the Senate, and Speaker
of the House of Representatives. At one time, the Division of Information sent
the Annual Reports to those individuals and about 25 Committee members and
staff. The last transmittal letter found was dated December 6, 1995 for the FY
1994 Annual Report. This function was transferred to OES and, in November
1997, the Division of Information gave a sample letter and mailing list to OES.
The prior Executive Secretary had no recollection of sending the Annual
Reports to Congress and the current Executive Secretary had no recollection of
sending the most recent report available to the public in May 2003.

We attempted to confirm whether the President of the Senate received a copy of
the Annual Report. The staff contacted said that, if received, the NLRB Annual
Reports would be sent to the library and this process was strictly followed in
2001, 2002, and 2003, which would have been the FY 1999, 2000, and 2001
Annual Reports. No copies of the NLRB Annual Reports were in the library.

In addition to the free copies distributed by the Agency, GPO stocks copies of
the Annual Reports for sale to the public. GPO retained 175 copies of the FY
2001 Annual Report. GPO kept one copy in a depository, sent 15 to the Library
of Congress, and offered 159 for sale to the public at $17 per copy. As of
August 11, 2003, GPO sold 119 copies of the FY 2001 Annual Report.

Agency officials provided very general anecdotal justification for the Annual
Report. Officials generally stated that the Agency received inquiries about the
reports. No surveys or similar efforts to identify public use were identified nor
were any statistics provided.


                                         4
Most information in the Annual Reports is available to the public in other
documents. A significant portion of the Annual Reports consists of information,
such as Board decisions, that is public (at least 85 of 192 pages in FY 2001).
This information is also provided in public documents such as the Weekly
Reports prepared by the Division of Information and the Daily Labor Report.
Some data was included in the Results Act report produced every year. Any
data thought to be of general interest that is not currently available could be
posted on the Agency’s Web site.

The Agency no longer has the authority to publish an Annual Report. The
Federal Reports Elimination and Sunset Act of 1995 eliminated the NLRA
requirement to submit an Annual Report to Congress. The NLRB appropriation
provides funds only to carry out the Act. In order to continue producing an
Annual Report, the Agency should seek an exemption.

Management's Comments and OIG Response

Management took exception to our estimate of $600,000 to produce the FYs
2000 and 2001 Annual Reports. They stated that the costs incurred to check
the accuracy of data in the Annual Reports also greatly improve the accuracy of
the data in CATS used to manage casehandling in the Regional Offices.
Further, the computer code developed to produce the Annual Report has been
used for other purposes. Management did not agree that the Agency requires
an express statutory mandate to produce the Annual Report and that the
decision whether to produce the Annual Report and what form the report will
take are matters to be addressed by the political leadership of the Agency.

Costs for developing the Annual Report and ensuring data accuracy are directly
related to the number of and amount of detailed information collected and
reported in tables. Some tables contain information that does not appear to be
useful to management such as the industrial distribution of cases received,
geographic distribution of cases received, and cases received by federal
administrative region. Further, we believe all data has limited use as a
management tool because the last three Annual Reports took 18 to 21 months
for the Agency to prepare.

The purpose of the Federal Reports Elimination Sunset Act was to reduce
unnecessary paperwork generated, and staff time spent, in producing reports
to Congress that are no longer relevant or useful. In the absence of a waiver to
the Federal Reports Elimination Sunset Act, the Agency needs to determine
whether the Annual Report is necessary to carry out the functions vested in it
by the Labor-Management Relations Act, 1947, as amended, and other laws.
We believe that any justification developed to continue producing the Annual
Report should be used to obtain an exemption to clearly indicate that Congress
has authorized an Annual Report.



                                       5
TIMELINESS OF ANNUAL REPORT

The FY 2001 Annual Report was dated March 18, 2003, approximately 18
months after the end of the fiscal year. The time to publish the Annual Reports
varied over the past 20 years, and started to increase with the FY 1999 report
after a downward trend in the 1990s. The last three Annual Reports took 18 to
21 months for the Agency to prepare and the last two took another 2 months
before they were available to the public.

The production times are the difference between the end of the fiscal year and
the date of the Letter of Transmittal in the Annual Report. Until the FY 1999
Annual Report, the transmittal date was 6 weeks after the report was
submitted to the Government Printing Office (GPO) for publication. Beginning
in FY 2000 the transmittal date was the date the report was submitted to GPO
for publication. The FY 1998 and FY 1999 Annual Reports were available to the
public approximately 1 week after the transmittal letter date. The FY 2000 and
FY 2001 Annual Reports were not available to the public until approximately 2
months after the transmittal letter date. If the reports were dated consistently,
the FY 2000 and FY 2001 reports would have an additional 6 weeks of
processing time.


                                                   Annual Report Production Time


           45
           40
           35
           30
  Months




           25
           20
           15
           10
            5
            0
                1982
                       1983
                              1984
                                     1985
                                            1986
                                                   1987
                                                          1988
                                                                 1989
                                                                        1990
                                                                               1991
                                                                                      1992
                                                                                             1993
                                                                                                    1994
                                                                                                           1995
                                                                                                                  1996
                                                                                                                         1997
                                                                                                                                1998
                                                                                                                                       1999
                                                                                                                                              2000
                                                                                                                                                     2001




                                                                          Fiscal Year



The Director of Information stated that it took approximately 18 months to
publish the FY 2001 Annual Report due to efforts they made to ensure data
accuracy. Efforts to identify and correct data inaccuracies involved personnel
from ITB, Operations-Management, and contractor personnel.




                                                                               6
Contractor prepared reports were provided to Operations-Management
identifying data inaccuracies needing correction. Operations-Management
provided these reports to Regional Offices for review and correction. This
process was repeated until identified errors were within management's
tolerable error rate. Management used this process to identify the Regions with
questionable data accuracy that we excluded from our testing.


REGIONAL OFFICES

The pending C cases and R cases in the four Regions were generally reported
accurately and the individual data elements for closed cases were generally
correct, but significant errors were present in some data elements in each
Region. We found that some of the errors were generally done in a consistent
manner within the Region, thus representing that the errors were indicative of
a Regional policy that was inconsistent with Agency-wide criteria. Operations-
Management provided additional instructions for recording closing dates in a
memorandum dated August 4, 2003.

C cases Closed

Of the 11 C case data elements tested, no errors were found for 4 data
elements and an insignificant number of errors were found in 5 other data
elements. Two data elements either contained a significant number of errors or
were generally not supported by documentary evidence.

                      Region 14     Region 30       Region 31      Region 34
                      No.    %     No.       %     No.       %    No.       %
Cases in universe     721          520             789            536
Cases in sample       75            74             76             75
Date case closed       1     1      13      17      1        1    11       14
incorrect
Number of employees   10    13      7       9      21      27      9      12
unsupported

Date Closed – Section 12210 and Section 12212 of the NLRB Regional Office
Clerical Procedures set the criteria for the date when a case should be reported
as closed. Of the 26 items with an incorrect closing date, only 2 of the errors
resulted in the case being reported in the wrong fiscal year.

Ten of the 13 errors in Region 30 and 5 of the 11 errors in Region 34 were
because the Region entered a closing date that differed from the date the
Regional Director approved a withdrawal. Six of the 11 errors in Region 34
were because the Region used as a standard practice a closing date 35 days
after an RD dismissal instead of the date when the appeal period ends. This
could result in cases that should have been closed in FY 2001 being reported
as closed in FY 2002.


                                        7
Number of Employees – In most cases, the number of employees on the charge
was blank and the file had no other documentation supporting the number
recorded in CATS. The Regions stated that the number was not supported in
the file because they obtained the number from other sources, such as prior
charges, R case certifications, or verbally from the company. Regions did not
document the obtaining of this data in the case file. The General Accounting
Office's Standards for Internal Control in the Federal Government state that all
transactions and other significant events need to be clearly documented and
the documentation should be readily available for examination.

Operations-Management stated that the number of employees was not
considered a critical factor because the Agency could not verify the accuracy of
the number even if it is in the case file. Table 18 is a Distribution of Unfair
Labor Practice Situations Received, by Number of Employees in Establishments.
The size of the establishment is broken down by increments of 10 employees
through 199 and thereafter in increasingly large increments, indicating that an
accurate number should be important.

R cases Closed

No errors existed in four data elements tested and an insignificant number of
errors existed in six data elements. Two Regions had a significant number of
errors for the date closed and stage of case at disposition.

                        Region 14    Region 30       Region 31       Region 34
                        No.    %     No.      %      No.      %      No.      %
Cases in universe       142          101             163             96
Cases in sample         55            51              57             52
Date case closed         0     0       6     11        0      0       9      17
incorrect
Stage of case at         0     0     12       21      5       9       8       15
disposition incorrect

Date closed – The NLRB Regional Office Clerical Procedures set the criteria for
the date when a case should be reported as closed. The six errors in Region 30
and three of the nine errors in Region 34 were because the Region did not enter
the date the RD approved a withdrawal as the closing date in CATS. Six of the
nine errors in Region 34 were because the Region's standard practice is to use
a closing date 35 days after an RD dismissal instead of the date when the
appeal period ends. This could result in cases that should have been closed in
FY 2001 being reported as closed in FY 2002.

Stage of Case at Disposition – Operations-Management has issued guidance on
the correct closing stage for R cases, stating in what situations a case should
close before notice of hearing, after notice of hearing, after hearing closed, after
Regional Director's Decision or after Board Decision. An incorrect stage of case



                                          8
at disposition for an R case would impact the accuracy of Table 9, Table 10,
and Table 10A.

Data Integrity

We excluded Region 2, Region 7, Region 21, Region 22, and Region 29 from our
testing because Operations-Management identified them as having known data
accuracy problems. These Regions accounted for 21 percent of C cases and 19
percent of R cases closed during FY 2001.

In Memorandum OM 02-57, CATS Information and Data Integrity Program,
dated April 16, 2002, Operations-Management asked each Region to develop a
Data Integrity Plan to monitor data entry into CATS. At a minimum, each
Region is required to periodically review at least 50 percent of the R cases and
30 percent of the C cases closed each month and must certify to Operations-
Management that the plan has been carried out. The first certifications under
the Data Integrity Plans were received in October 2002.

Operations-Management stated that Region 2, Region 21, and Region 29 have
made significant improvements, but Region 22 was still having some data
accuracy issues. Additional support will be provided including more frequent
contact, developing new queries for the Region to identify erroneous data, and
instituting additional data checks.

Operations-Management also determined that Region 7 needed additional
assistance. Operations-Management plans to visit the Region to provide
remedial CATS training and to review business processes. The review will be
helpful because both the Regional Director and Office Manager are new.

In the four Regions we visited, management had implemented a Data Integrity
Plan that either meets or exceeds the minimum requirements specified by
Operations-Management. Although the plans were not in effect during FY
2001, each Region's plan will have a prospective impact on data quality.


OFFICE OF EXECUTIVE SECRETARY

With the exception of the date assigned for R cases, information in PCL was
generally accurate and supported by documentary evidence. One C case and
three R case median days figures reported in Table 23 of the Annual Report
were not in agreement with the reports on which they were based. The median
days errors ranged from 3 days to 33 days. A 3-day difference may not be
significant, but it is important because a similar methodology was used to
produce the 33-day error.




                                        9
C cases Closed

PCL showed 536 C cases as closed in FY 2001. We selected a statistical
sample of 75 closed C cases and tested three data elements: date of originating
document, date assigned, and date of Board decision. Generally, items tested
were accurate.

C cases Median Days

The median days reported for various Board C case activities in Table 23 were
generally accurate. The age of cases pending Board decision from assignment,
however, was reported inaccurately.

OES provided an annotated report, Age of Cases Pending Board Decision from
Assignment, to support the median days shown in the Annual Report. The
report contained many adjustments and markups and could not be reconciled
to the 235 days stated in the Annual Report. A legible copy of the report
showed a median of 238 days.

R cases Closed

PCL identified 199 R cases that closed in FY 2001. We selected a statistical
sample of 60 closed R cases and tested three data elements: date of originating
document, date assigned, and date of Board decision. With the exception of
the date assigned, items tested were generally accurate. For the date assigned,
9 of the 60 (15 percent) items tested were not supported by documentary
evidence. One item was incorrect and documentation was missing for the other
eight items.

R cases Median Days

We reviewed supporting documentation for median days figures reported in the
Annual Report and identified three line items that were reported incorrectly in
Table 23 of the Annual Report.

                                  Annual       Supporting          Days
   Line Item                      Report     Documentation      Difference
   Filing of Petition to           232            235                3
   Board Decision
   Originating Document              65             75              10
   to Board Decision
   Age of Case from Filing of       125             92              33
   Petition to Assignment




                                      10
ANNUAL REPORT TABLES

Recalculation

Annual Report tables that we recalculated were supported by the databases
identified by management. Thirteen of the 17 tables were within one percent of
the amounts recorded in the Annual Report. Only four Annual Report tables
contained a line item that differed from our calculation by more than 2 percent,
Operations-Management's acceptable deviation rate. In each instance, the
percentage differences were due to a small number of items being reported, and
we consider the differences insignificant.

Because the scripts used to calculate the Annual Report tables created only a
count of cases and did not create a list of the cases underlying the tables for FY
2001, we were unable to reconcile our calculations with the Annual Report.
ITB stated that they created a case list for FY 2002 and are using this to verify
differences between tables, but did not verify differences in FY 2001.

Table/Chart Agreement

The Annual Report presents the Agency's performance both in charts in
Chapter 1 of the report and tables as an appendix to the report. The charts and
tables often display the same information and should present consistent
information.

Four of 11 charts did not match the underlying tables:

   •   In Chart 3, a pie chart, the percentages totaled 101.4 percent;

   •   Chart 3A disagreed with Table 7 by a total difference of 3.2 percent. The
       numbers apparently were transposed when entered into the spreadsheet
       used to calculate the charts;

   •   In Chart 3B, a pie chart, the percentages totaled 89.7 percent and thus
       disagreed with Table 7, which totaled 100 percent;

   •   Chart 12 showed 785 more elections than Table 11A, a difference of 24.6
       percent. ITB did not know why this discrepancy occurred.

Different employees in ITB prepare the Annual Report charts, with one
preparing the tables, and another developing the charts. These errors were not
corrected prior to publication because the ITB employee who prepared the data
for the charts did not review the draft Annual Report.




                                        11
Analytical Procedures

Cutoff testing did not identify any evidence that the Regions were manipulating
dates to improve their appearance and no duplicate case numbers were found
in CATS. Gaps in the case sequence were present that could represent missing
cases and illogical data could be entered into CATS. Data elements were
missing in CATS, resulting in differences between Annual Report tables. For
four cases, $1,674,035 reported as reimbursement of fees, dues and fines
should have been reported as backpay.

Gap Detection

Gaps in the sequence of case numbers could represent unrecorded activity. We
found 28 case numbers for C cases and 2 case numbers for R cases filed in FY
2001 that could represent missing cases because of a gap in the sequence. Of
the 28 case numbers for C cases, we found that two cases were reported in
other data tables as closing in FY 2001. These two cases were, therefore,
included in the cases that closed in FY 2001, but were not included in the
cases that were filed in FY 2001.

Operations-Management stated that the gaps were not necessarily missing
cases, but could have been caused by either the Regions skipping a number in
error or because Regions "backfilled" missing numbers when they saw that a
case number had not been assigned to a case. Operations-Management also
stated that each case having a distinct case number is more important than
the case number reflecting the order in which cases are received.

Illogical Data

CATS accepts data entries that are illogical. Even though the level of errors
found were within the acceptable tolerance levels, the following data shows that
the system does not have controls in place to prevent or detect illogical data
from being accepted.

   •   155 C cases and 23 R cases had a case status of being closed, but had
       no closing date in CATS. We selected a judgmental sample of 16 C cases
       and 4 R cases and found that 17 of the cases were closed. Fourteen of
       the closed cases would have affected the numbers reported in the FY
       2001 Annual Report because the case should be included in Table 1
       based on the correct closing date.

   •   38 C cases and 10 R cases had a closing date prior to the filing date.
       Twenty cases that were open at the end of the year were listed in CATS
       as being closed in FY 2001 and 6 cases that closed during FY 2001 were
       not listed as being closed in CATS during FY 2001. Because Annual



                                      12
       Report tables are based on the closing dates in CATS, these errors would
       affect the Annual Report.

   •   67 C cases were excluded from Table 7 because the case was listed as
       closing either before or after a 10(k) notice was issued, but the case type
       was not "CD." A 10(k) proceeding would only be held in a case with a
       case type of "CD."

   •   11 C cases were excluded from Table 7 because they were listed as
       closing after a hearing and the hearing was never held.

   •   26 cases were excluded from Table 7 because the method of disposition
       and the stage of case at disposition were inconsistent (e.g., a case that
       closed by an ALJ decision, but the case did not close after an ALJ
       decision). The computer program used to produce Table 7 counts cases
       based on these fields being consistent and ignores inconsistent fields.

   •   In 33 elections in Table 13 and 17 elections in Table 12, the vote tally
       does not match the "Majority For" column. Because the "Majority For"
       data element is used to determine election winners, the Annual Report
       did not report the elections correctly.

   •   20 elections were excluded from Table 13 because the Union names from
       the election tally and participant tables did not match. The Data Integrity
       Checklist for R cases states that these fields must match "character for
       character."

   •   In 30 R cases in Table 23, the date of filing was after the date the notice
       of hearing was issued.

These errors occur because no edit checks were present in CATS to detect and
prevent acceptance of illogical data during FY 2001. We were told by ITB that
edit checks will be included in the update of CATS for release in FY 2004,
which is in early development.

Missing Data

Several Annual Report tables report cases closed and cases received from Table
1 based on other characteristics of the case. The scripts used to calculate the
Annual Report tables look for an entry in these fields to be reported. If no
entry is present in a field, the case will not be included in the table. For
example, in the script for Table 5, a case will be counted only if the case has a
North American Industrial Classification System (NAICS) code. The result of a
missing data element is that the cases with the missing data element will not
appear in that table, and the table will not be in agreement with other tables.


                                         13
We found that the following data elements were missing from the tables:

              C cases                       Missing      Total
          Data Element           Table       Cases       Cases
     Allegations                   2           2          28,126
     Compliance Type               4          25          11,366
     NAICS Code                    5          75          28,053
     Dispute State               6A-6B        29          28,099
     Closing Method/Timing         7          15          29,670

              R cases                       Missing      Total
          Data Element           Table       Cases       Cases
     NAICS Code                     5          8           5,404
     Unit State                  6A-6B         7           5,406
     Closing Timing               9-10         3           5,151
     Closing Method                10         12           5,108
     Certified Election/No         10         54           5,108
     Election Type
     No Election Type             11          65           3,081

ITB stated that they did not perform any analysis to identify and determine
why specific cases were missing data elements for the FY 2001 Annual Report,
but that they are doing this analysis for FY 2002. ITB does an analysis
reconciling the differences between the tables. Staff in Operations-
Management stated that the acceptable deviation rate was +/- 2 percent for FY
2001. For FY 2002, the acceptable deviation rate was lowered to +/- 1 percent.
In Memorandum OM 03-82, Operations-Management issued a Data Integrity
Checklist for Annual Report and Election Report Issues, which summarizes
common errors that affect the Annual Report, including missing data elements,
and requests that the Regions take special care to check for these errors.

Individually Significant Items

We identified five cases with entries in data element "Reimbursement of Fees,
Dues, and Fines" that were over $100,000, an amount we considered to be
individually significant. The amount for these five cases was $1,874,035. Four
of the five cases tested, totaling $1,674,035, were for employee benefits that
would be properly defined as backpay according to Section 10532 of the NLRB
Casehandling Manual.




                                       14
AUDIT FOLLOW-UP

Report OIG-INS-16-01-03, Review of the Data Accuracy of the Fiscal Year 1999
NLRB Annual Report, was issued on September 25, 2001. Significant findings
in that report were that our recalculations of Annual Report tables from the
Agency's database were in significant disagreement with the Annual Report and
that a large number of cases reported as pending as of the end of the year were
closed. Our recalculations of the FY 2001 Annual Report were generally in
agreement with the Agency's published Annual Report and we did not identify a
significant amount of closed cases that were being reported as pending.

We suggested that the Agency include narrative regarding the impact that
erroneous pending cases in the FY 1999 Annual Report would have on the FY
2000 Annual Report. Multiple tables in the FY 2000 Annual Report were
footnoted that the totals differed from the prior year as a result of post-report
adjustments.




                                        15
                           RECOMMENDATION

We recommend that the Director of Information seek concurrence from the
Board and General Counsel to cease producing the Annual Report; or obtain an
exemption from the Federal Reports Elimination and Sunset Act of 1995 to
continue producing the Annual Report.




                                     16
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board

Memorandum

                                                                         Date:        September 24, 2003
To        :     Jane E. Altenhofen, Inspector General

From      :     Richard A. Siegel, Associate General Counsel
                David B. Parker, Deputy Executive Secretary
                William B. Cowen, Executive Assistant to the Chairman

Subject:        Draft Report OIG-AMR-39, Review of Data Accuracy in the
                FY 2001 Annual Report

       This is to provide our comments to the subject draft report. We appreciate the
opportunity to review the draft and respond. Initially, we are pleased that your review of
the FY 2001 Annual Report revealed significant progress in improving data accuracy in
the Casehandling Activity Tracking System (CATS) contributing to the overall accuracy
of the Annual Report. We are pleased that data integrity improvement efforts we have
undertaken since bringing CATS to the Regions, and certainly since issuance of
Inspection Report OIG-INS-16-01-03, “Review of the Data Accuracy of the Fiscal Year
1999 NLRB Annual Report,” on September 25, 2001, have resulted in significant
improvements.

       We also acknowledge that further improvement in data integrity must be pursued.
Management actions noted in the draft report as having been taken and as being under
development, as well as others not mentioned, will result in (1) more accurate data in
CATS for case management purposes at the local and National levels; (2) more efficient
and effective use of Agency resources; and (3) greater accuracy in the information
concerning Agency activities we share with stakeholders. We also appreciate your
inclusion in the draft report of our comments concerning the utility of an annual report,
even in the absence of a statutory requirement.1

      We continue to take exception, however, to the inclusion in your submission
memorandum accompanying the draft report of the comment that, “[t]he Agency
expended over $600,000 in FYs 2000 and 2001 to produce Annual Reports that were
no longer required.” This figure is, at best, an estimate2 and, as the Report observes,

1
  In this regard, your comment on p. 3, Findings, that the “Agency has presented no justification to spend significant
resources on [the production of an annual report]. . . .” appears inconsistent and inaccurate.
2
  The programming undertaken for producing and verifying the Annual Report tables was part of a major
enhancement to the CATS system that addressed a wide variety of items. We have been advised that the
accounting system for this contract did not separately track costs associated with Annual Report tables, and that
precise cost information is not available at this time. The $600,000 figure cited in the Report is a rough approximation
that includes any programming that arguably was related to the Annual Report tables, but not necessary uniquely
                                                      -3-



many of those expenses are nonrecurring.3 The figure represents contractor costs and
Agency employee time spent programming, testing and running code to check the
accuracy of data reported in the Annual Report tables and correcting errors in the CATS
database disclosed by that data verification process. These exercises, including the
development of a “cross-footing” report,4 greatly improved the accuracy of the Annual
Report tables and the data in CATS used to manage casehandling in the Field. Agency
management would have required cross-footing or some other mechanism to check
data accuracy in the absence of the Annual Report data testing actually performed. Our
mission-related programs and, as noted, our obligation to provide accurate information
on Agency activities to our stakeholders, require that casehandling data be as complete
and error free as possible. The September 25, 2001 IG report on the accuracy of FY
1999 Annual Report data and our pledge to publish accurate data (see Information
Quality Guidelines published on the Agency Website pursuant to Section 515 of the
Treasury and General Government Appropriations Act for FY 2001) required Agency
management to test and correct our data to the extent feasible. These management
needs would have required the dedication of substantial resources even in the absence
of a statutory reporting obligation.5 Indeed, as a result of the accurate data exercises
undertaken in order to produce the annual reports, the information in the CATS system
now available to Agency managers and the public has never been more accurate.
Accordingly, to report that “[t]he Agency expended over $600,000 in FYs 2000 and 2001
to produce Annual Reports that were no longer required. . . .” is, we believe, misleading.

        Furthermore, it is common industry practice for programming code designed for
one purpose to be “cut and pasted” into computer programs to serve other purposes.
Consistent with this practice, some of the coding and production work undertaken by
our contractor and by Agency employees for the purpose of producing the annual report
has been “reused” for other purposes not associated with producing the annual report.
In this regard, it is our understanding, based on information provided by the principal
CATS contractor, that “annual report” code was “reused” to help produce the Pipeline
Report utilized by senior managers to help manage casehandling in the various offices
of the Agency. Accordingly, resources spent on annual report coding and data
verification protocols, in addition to contributing to data accuracy, served other purposes
as well.




specific to the Annual Report itself. As noted below, many of these costs would have been necessary even in
absence of an Annual Report.
3
  It would be appropriate to amortize many of the costs associated with Annual Report table and cross-footing coding
over the years the code will be utilized. This, we suggest below, may be a long time.
4
  A cross-footing report compares like data appearing in different tables utilizing different case selection criteria. Data
accuracy can be assumed when the data are identical or differ only within narrowly defined limits.
5
  The Federal Reports Elimination and Sunset Act of 1995 provided that 4 years after its enactment all provisions of
law, except those expressly exempted, requiring the submission to Congress of any annual, semiannual or other
regular periodic report ceased to be effective. The National Labor Relations Act was not specifically exempted and
therefore, as of May 2000, the Agency was relieved of the obligation contained in Section 3(c) of the Act to report
yearly to Congress and to the President significant case activities and operations for the preceding fiscal year. The
Federal Reports Elimination and Sunset Act of 1995 unfortunately escaped the attention of Agency managers and,
apparently, also the Office of Inspector General until recently.


                                                            3
                                                     -4-



       Finally, the submission memorandum accompanying the draft report includes the
comment that, “[b]y eliminating the Annual Report, we estimate the Agency could put
approximately $58,000 to better use each year.”6 We do not know the basis for this
prediction. However, in the absence of a statutory mandate, whether the National Labor
Relations Board will produce an annual report and, if so, the form that report will take
are matters to be addressed by the political leadership of the Agency.7 The production
of any such report will necessarily require the expenditure of appropriated funds. In this
regard, we do not agree that the Agency requires an express statutory mandate to
produce an annual report, as you state at p. 5 of the Report. We note that you do not
cite any authority for the curious proposition that an express statutory mandate is
required before a federal agency can provide information to the public regarding its
operations. Indeed, such a rule would appear to be contrary to the spirit of open
government that is the cornerstone of our democracy.8

     We look forward to working with you on this and other matters important to the
management of the Agency and the pursuit of our mission.


                           R.A.S.                      D.B.P.                      W.B.C.




6
  On p.4 of the Report you place the savings at approximately $54,000.
7
  There is no question that there is anecdotal evidence in the form of references to the Annual Report in official
reports, court decisions, briefing documents and scholarly journals, that Annual Reports are a valued source of
information about Agency activities to the Congress, the courts, practitioners and academics. However, in
determining whether to continue the practice of issuing annual reports it may be appropriate to consult in a formal
manner with Agency stakeholders. In the absence of such consultation, we cannot agree with your statement that
elimination of the Annual Report “would have minimal impact on the public.”
8
  In this connection, the U.S. Merit Systems Protection Board recently issued its Annual Report for Fiscal Year 2002,
noting at p. 9 that, while the statutory requirement for it to issue an annual report was “sunset” by the Federal Reports
Elimination and Sunset Act of 1995, it was publishing its Report as a service to its customers.


                                                           4
